No. 20-297

In the Supreme Court of the United States
TRANS UNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.
CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for Amicus Curiae and a member of the Bar of
this Court, hereby certify that on this 8th day of October, 2020, I caused a copy of the
Brief of the Chamber of Commerce of the United States of America as Amicus Curiae
in Support of Petitioner to be served by email upon:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, D.C. 20004
paul.clement@kirkland.com

Andrew J. Ogilvie
Ogilvie & Brewer, LLP
3450 Sacramento Street, #413
San Francisco, CA 94118
andy@ogilvie-brewer.com

Attorney for Petitioner

Attorney for Respondent

I further certify that all parties required to be served have been served.
/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

